                       UNITED STATES
            CONSUMER PRODUCT SAFETY COMMISSION




                 OFFICE OF INSPECTOR GENERAL

OPPORTUNITIES EXIST TO ENSURE CPSC EMPLOYEES ARE SATISFYING IN
        GOOD FAITH THEIR JUST FINANCIAL OBLIGATIONS

                     Issued: September 30, 2014




                                 1
                                                    TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................................................ 3
RESULTS AND FINDINGS .......................................................................................................... 5
   1.    Possible Employee Federal Tax Delinquency ..................................................................... 5
   2. EXRM Could Strengthen The Timeliness of Implementing Adverse Actions for Tax
   Delinquencies .............................................................................................................................. 6
   3.    Improved Controls Needed to Ensure Accurate and Timely Withholding Processing ........ 8
APPENDIX A: BACKGROUND .................................................................................................. 9
APPENDIX B: OBJECTIVES, SCOPE & METHODOLOGY ................................................... 11
APPENDIX C: ACRONYMS & ABBREVIATIONS ................................................................. 13
APPENDIX D: MANAGEMENT RESPONSE ........................................................................... 14




                                                                       2
                                   EXECUTIVE SUMMARY


BACKGROUND

The U.S. Consumer Product Safety Commission (CPSC) Office of Inspector General (OIG)
conducted an evaluation of the CPSC’s efforts to ensure its employees are, in good faith,
satisfying their financial obligations, especially those of Federal, State or local taxes imposed by
law. According to the 2011 Federal Employee/Retiree Delinquency Initiative Report, prepared
by the Internal Revenue Service (IRS), Federal civilian employees owed $2,976,279 in back
taxes. Included in that amount were 20 CPSC civilian employees, who collectively owed
$194,164 in unpaid tax liabilities.

The OIG conducted this evaluation in accordance with the Quality Standards for Inspection and
Evaluation established by the Council of the Inspectors General on Integrity and Efficiency
(CIGIE) in 2011. We reviewed tax withholdings and garnishment activity of the CPSC’s
employees during the period between October 1, 2012 and December 31, 2013. This included
reviews of the respective employee’s 2013 Form W-2 Wage and Tax Statement information with
the related tax withholdings data and the relevant key internal controls. Finally, we assessed the
CPSC’s compliance with identified applicable laws, regulations, and provisions.

RESULTS OF EVALUATION AND FINDINGS

The purpose of our review was twofold: first, to identify instances of potential tax delinquency of
the CPSC’s employees; and, second, to determine whether the CPSC’s relevant internal controls,
policies, and procedures established to monitor and manage employee wage garnishments were
functioning in a reasonable manner. In summary, our findings include:

   1. Possible Employee Federal Tax Delinquency
      We identified four employees who had no ($0) federal income taxes withheld, due to
      claiming an exempt status. These employees had gross annual wages of
                                                                                    Employee’s use
      $30,456, $34,075, $65,393, and $65,393, respectively. In addition, we
                                                                                    of excessive tax
      identified 15 employees that did have federal taxes withheld, but claimed an
                                                                                    exemptions…
      excessive amount of exemptions, ranging from 10 to 99, as a means to curtail
                                                                                    pg. 5
      the amount of taxes withheld and possibly avoid payment of federal taxes.

   2. EXRM Could Strengthen the Timeliness of Implementing Adverse
      Actions                                                                           Lack of internal
      The CPSC Office of Human Resources (EXRM) has not established proper              controls over
      oversight procedures over wage garnishments processed by their service            the service
      provider, the Interior Business Center (IBC) of the U.S. Department of the        provider to
      Interior (DOI). As a result, they are unable to implement timely                  implement
      corrective/adverse actions on employees whose failure to meet their financial     adverse actions
      obligations relating to Federal taxes have resulted in involuntary court orders   timely…pg. 6
      and salary offsets. EXRM’s current process to identify involuntary
      garnishment or unpaid financial obligation by employees does not rely on any sort of
      “active monitoring” but instead on infrequent background/suitability investigations which
      are conducted internally once every five years.


                                                 3
   3. Improved Controls Needed to Ensure Accurate and Timely Withholding
      Processing                                                                    General lack of
      EXRM relies exclusively on DOI’s IBC to both perform and ensure the           internal
      completeness and accuracy of the processing of CPSC’s garnishments. While     controls over
      IBC provides services over specific aspects of payroll processing, to include the service
      debt management for active federal employees, the CPSC still has the legal    provider…pg. 8
      responsibility to ensure the accuracy and timeliness of these processes. As
      previously stated, EXRM has not established proper oversight procedures over
      wage garnishments processed by IBC. Thus, EXRM is unable to ensure garnishments are
      processed accurately and timely.


                               MANAGEMENT’S RESPONSE

Overall, based on the written response provided by management, we have concluded
management did not concur with OIG’s findings and recommendations. Management asserts
that it is ultimately the personal responsibility of each CPSC employee to determine and take the
appropriate number of tax exemptions. Management also asserts that appropriate and timely
action is taken if an employee is not meeting their just financial obligations, and that wage
garnishment reports are appropriately monitored for compliance and accuracy. OIG therefore
forwarded the management response to the Office of the Executive Director for facilitation of
resolution on this matter.




                                                4
                                   RESULTS AND FINDINGS

1.   Possible Employee Federal Tax Delinquency

Federal tax abuse by Federal employees and contractors has received recent Congressional
attention. In 2013, the U.S. House of Representatives rejected a bill that would have established
a process for firing federal workers who have “seriously delinquent tax debts” and prevent
individuals in that situation from being hired by the Federal government. As noted above, the
2011 IRS Federal Employee/Retiree Delinquency Initiative report stated that the CPSC had 20
employees who collectively owed $194,164 in delinquent federal taxes. Thus, we found it
appropriate to conduct a separate review of Federal taxes withheld to identify instances of
potential tax delinquency by CPSC employees. This review was conducted based on information
regarding employee tax withholdings effective as of the calendar year-end 2013.

We performed the analysis by reviewing the Form W-2 records of 521 CPSC employees for
2013 and identified the following:

     •   Employees that did not have any federal taxes withheld for calendar year 2013:

                           Employee      Salary       Amount Fed Tax
                                                       Withheld YTD
                               1        $65,393             $0
                               2        $34,075             $0
                               3        $30,456             $0
                               4        $65,393             $0

     •   At the end of calendar year 2013, the following employees claimed an excessive number
         (over 10) of exemptions, but at least some Federal taxes were withheld:

                Employee       Salary     Amount of Fed Tax       Number of Tax
                                           Withheld YTD            Exemptions
                    1        $140,259         $14,749                 99
                    2        $129,758         $14,217                 99
                    3        $103,872          $5,314                 99
                    4         $67,114          $4,948                 99
                    5         $60,765          $1,601                 89
                    6         $97,936           $375                  50
                    7         $94,969          $4,502                 30
                    8         $94,969          $6,437                 11
                    9        $112,774          $7,372                 10
                   10         $61,952          $4,607                 10
                   11         $77,368          $4,297                 10
                   12         $89,033          $3,611                 10
                   13         $68,712          $1,229                 10
                   14         $53,350           $646                  10
                   15         $59,207           $389                  10


                                                  5
   •   In addition to having no federal taxes withheld, the following employees (from the first
       bullet, above) also claimed an excessive number of exemptions:


                Employee       Salary     Tax Exemptions      Amount of Fed Tax
                                                               Withheld YTD
                     1        $65,393            15                  0$
                     2        $34,075            11                  0$

   •   The following employees (from the second bullet, above) claimed an excessive number
       of exemptions, while simultaneously being subject to involuntary wage garnishment
       during calendar year 2013:

                          Employee        Salary      Garnishment Type
                             9          $112,774      Federal Tax Levy
                            12           $89,033       Child Support
                            14           $53,350      Federal Tax Levy

Overall, our review revealed relatively few CPSC employees who had no federal taxes withheld
and a low number of instances of employees claiming an exaggerated number of tax exemptions
for the 2013 calendar year. Failure of a Federal employee to satisfy their just financial
obligations violates 5 CFR 2635.101 (b)(12), Standards of Ethical Conduct for Employees of the
Executive Branch, which mandates federal employees shall satisfy, in good faith, their financial
obligations such as Federal, State, or local taxes which are imposed by law. Therefore, we
referred all instances of potential tax delinquencies to the CPSC Inspector General for further
investigative consideration. Please note, unlike the audit or review process, any investigative
determination made by the Office of Inspector General will not result in the publication of a
publicly available report or in recommendations being provided to CPSC management as part of
this report.


2. EXRM Could Strengthen the Timeliness of Implementing Adverse Actions


The Standard of Ethical Conduct for Employees of the Executive Branch relating to the
satisfaction of financial obligations is implemented by 5 CFR 2635.809, which reads,
“Employees shall satisfy in good faith their obligations as citizens, including all just financial
obligations, especially those such as Federal, State, or local taxes that are imposed by law. For
purposes of this section, a just financial obligation includes any financial obligation
acknowledged by the employee or reduced to judgment by a court. In good faith means an honest
intention to fulfill any just financial obligation in a timely manner. In the event of a dispute
between an employee and an alleged creditor, this section does not require an agency to
determine the validity or amount of the disputed debt or to collect a debt on the alleged creditor's
behalf.”




                                                 6
Per 5 CFR 2635.106, “a violation of this part or of supplemental agency regulations may be
cause for appropriate corrective or disciplinary action to be taken under applicable Government
wide regulations or agency procedures…[I]t is the responsibility of the employing agency to
initiate appropriate disciplinary or corrective action in individual cases.”

However, despite the impression made by a “literal” reading of the provisions cited above, the
Merit System Protection Board (MSPB) has determined that agencies may only take disciplinary
action against employees for failing to satisfy in good faith their financial obligations that have a
relationship or “nexus” to the employees’ employment with the Federal Government. In general,
the only such debts for which “nexus” is found by the MSPB relate to an employee’s failure to
pay taxes. 1

Thus, the OIG performed a review of employees with involuntary garnishments related to their
failure to pay taxes to determine the timeliness of adverse/corrective actions. Specifically, we
discovered:

        a) EXRM failed to initiate adverse/corrective action on two (2) employees that have
        since separated from the CPSC; and,

        b) An employee that is currently under investigation by the OIG for possible criminal
        violations of the internal revenue code, but EXRM failed to implement adverse/corrective
        action prior to the pending investigation.

In addition to the above, EXRM does not have procedures in place to monitor the DOI IBC’s
processing of involuntary garnishments for CPSC employees. Therefore, EXRM is unable to
implement adverse/corrective action in a consistent or timely manner. Currently, EXRM relies
on infrequently performed, once per five years of employment, background/suitability
investigations conducted on the employee to identify involuntary garnishments and/or unpaid
financial obligations. When these investigations result in actionable findings, EXRM follows 5
CFR 752, Adverse Actions, as a means of processing administrative or punitive personnel
actions. The identified compliance weakness can contribute to non-compliance with the above
described Federally mandated policies and provisions.

We recommend:

    1. Although the DOI’s IBC is responsible for processing wage garnishments on behalf of
       the CPSC, we recommend that EXRM work with the IBC to develop and document a
       process to actively monitor involuntary wage garnishments of CPSC employees. The
       process should include receiving and retaining all copies of all wage garnishment orders,
       including garnishments transferred from the Department of the Treasury’s Treasury
       Offset Program. 2 This will ensure the CPSC has the opportunity to timely implement
       corrective actions/adverse actions and comply with CFR 2635.106(b). Also, EXRM

1
  The Merit Systems Protection Board (MSPB) is an independent, quasi-judicial agency in the Executive branch.
The mission of the MSPB, according to their website, is to "Protect the Merit System Principles and promote an
effective Federal workforce free of Prohibited Personnel Practices."
2
  The Treasury Offset Program is a centralized offset program, administered by Treasury’s Bureau of the Fiscal
Service's Debt Management Services, to collect delinquent debts owed to federal agencies and states (including past-
due child support), in accordance with 26 USC § 6402(d) (collection of debts owed to federal agencies), 31 USC §
3720A (reduction of tax refund by amount of the debts), and other applicable laws.

                                                         7
       should coordinate with the Office of General Counsel regarding the appropriateness of
       initiating corrective/adverse actions.

3. Improved Controls are Needed to Ensure Accurate and Timely Withholding Processing

The DOI IBC is responsible for the processing of third party debts on behalf of the CPSC. These
debts consist of bankruptcies, child support, alimony withholding orders, commercial
garnishments, IRS tax levies, state and local tax levies, Treasury salary offsets, and government
credit card debts. The IBC sends a written notification to the employee about the debt type or a
change to an existing order or third party debt. The notification includes the pay period that the
deduction will begin or change; the amount of the deduction; and, any other pertinent
information. On the 15th and 30th of each month the IBC will upload status reports to the Debt
Management System, DataMart, for debt activity processed for the previous pay period.

Because EXRM has not developed mechanisms for overseeing the collection efforts performed
by the service provider, it appears EXRM is solely relying on the DOI IBC’s internal controls
over wage garnishment processing. Although, the DOI IBC performs all debt management
processing on behalf of the CPSC, it is still ultimately EXRM’s responsibility to make sure that
all withholdings for CPSC employees are processed in a timely and accurate manner. As noted
above, such a weakness in internal controls can and does contribute to non-compliance with
Federally-mandated policies and provisions.

We recommend:

   2. Although the DOI IBC is responsible for processing wage garnishments on behalf of the
      CPSC, EXRM is ultimately responsible for the timeliness and accuracy of requested
      garnishments. We recommend that EXRM work with the IBC to develop and document
      a process to monitor wage garnishments processed by the IBC. The process should
      include obtaining and comparing the DataMart-processed garnishments reports to either
      the employee’s court orders or the Treasury Offset Program data file. The review should
      conclude with evidence of review by signoff from the preparer followed by evidence of a
      supervisorial review.




                                                8
                                APPENDIX A: BACKGROUND


The Standards of Ethical Conduct for Employees of the Executive Branch, at 5 CFR
2635.101(b)(12), states that all executive branch employees are responsible for satisfying in good
faith their just financial obligations, especially those (such as Federal, State, or local taxes) that
are imposed by law. This is derived from section 101(l) of Presidential Executive Order 12674
(as modified by Executive Order 12731), which sets forth the Principles of Ethical Conduct for
Government Officers and Employees. This obligations implemented by 5 CFR 2635.809, which
reads, “Employees shall satisfy in good faith their obligations as citizens, including all just
financial obligations, especially those such as Federal, State, or local taxes that are imposed by
law. For purposes of this section, a just financial obligation includes any financial obligation
acknowledged by the employee or reduced to judgment by a court. In good faith means an
honest intention to fulfill any just financial obligation in a timely manner. In the event of a
dispute between an employee and an alleged creditor, this section does not require an agency to
determine the validity or amount of the disputed debt or to collect a debt on the alleged creditor's
behalf.”

Thus, agencies do not generally have authority to act as collection agents on behalf of an
employee’s creditors, nor do agencies have the authority to determine what constitutes a debt
“imposed by law.” Such a debt would generally only be an obligation that has been rendered
into some final form, such as a final judgment from a tax or claims court.

Despite the impression made by a “literal” reading of the CFR provisions cited above, the Merit
System Protection Board (MSPB) has determined that agencies may only take disciplinary action
against employees for failing to satisfy in good faith their financial obligations that have a
relationship or “ nexus’ to the employees employment with the Federal Government. In general,
the only such debts for which “nexus” is found by the MSPB relate to an employee’s failure to
pay taxes.

In response to a steady increase in the amount of delinquent debt owed to the United States, and
concern that appropriate actions were not being taken to collect this delinquent debt, Congress
passed the Debt Collection Improvement Act (DCIA) of 1996, Pub. L. 104-134. The DCIA
authorized both Administrative Wage Garnishment and the Treasury Offset Program as means to
satisfy delinquent federal tax and non-tax debt, whereby an employer withholds amounts from an
employee’s wages and into a written repayment agreement.

Following receipt of a withholding order, employers are required to certify certain information
about the debtor, such as the debtor’s employment status and disposable pay available for
withholding. The employer must deduct from all disposable pay to the debtor whichever is the
lesser of: (1) the amount indicated on the garnishment order, up to 15 percent of the debtor’s
disposable pay; or, (2) the amount by which the debtor’s disposable pay exceeds an amount
equivalent to 30 times the minimum wage. If multiple garnishments from various sources are
applied to one debtor’s wages, the total garnishments may not exceed 25 percent of the
individual’s disposable pay.


                                                  9
The CPSC’s EXRM is responsible for the CPSC’s payroll operations, which includes the
responsibility of processing the receipt of employee wage garnishments. Currently EXRM has a
contractual agreement with the Department of the Interior to perform payroll operations,
including the processing of wage garnishments.




                                             10
               APPENDIX B: OBJECTIVES, SCOPE & METHODOLOGY

OBJECTIVES

The primary purpose of our evaluation was to determine whether the relevant internal controls,
policies, and procedures established to monitor and manage employee wage garnishments were
functioning in a reasonable manner. Specifically, this included determining:

   1. Whether EXRM developed disciplinary actions and addressed CPSC employees with
      delinquent tax obligations;

   2. Whether outstanding tax and non-tax delinquent debts are being collected timely and
      properly; and,

   3. The CPSC employees who may be delinquent in paying future Federal income taxes due
      to their taking an excessive number of tax exemptions.

SCOPE

This evaluation covers court orders and Department of the Treasury offsets received as of
December 31, 2013. To determine the timeliness and accuracy of collections, we examined
transactions from October 2012 to December 2013, during which time the CPSC processed 16
garnishments for employees, resulting in monthly payments of $72,447.96 in new and modified
garnishments. All CPSC employees located at the headquarters and field locations throughout
the United States were included in the scope of the evaluation. Our fieldwork took place from
December 2013 through March 2014.

METHODOLOGY

We conducted this evaluation in accordance with the Quality Standards for Inspection and
Evaluation established by CIGIE. Those standards require that we obtain sufficient data to
provide a reasonable basis for reaching conclusions, and also require that we ensure evidence
supporting findings, conclusions and recommendations is sufficient, competent, and relevant
such that a reasonable person would be able to sustain the findings, conclusions, and
recommendations.

To accomplish our evaluation objectives, we obtained an understanding of the wage garnishment
processes to include the design, implementation, and operating effectiveness of internal controls,
compliance with the CPSC governing policies and procedures, and compliance with applicable
Federal laws, regulations, and provisions. To obtain this understanding, we conducted
interviews with key EXRM personnel, inspected relevant supporting documentation, and
examined data from the DOI, and data from the Department of Treasury.

Based on the procedures performed, we identified key control activities were in place to ensure
the collection of withholdings accurately and timely. We also designed the procedures to review
specific attributes of the program and to determine compliance with the identified laws,
regulations, and provisions governing the program.

                                                11
To perform our procedures at the transactional level, we obtained a population of garnishments
from the Federal Personnel Payroll System (FPPS). To assess the reliability of FPPS’s
transactional data, we: (1) reviewed related documentation, including an Independent Service
Auditors Report on the effectiveness of FPPS’s internal controls; (2) interviewed CPSC officials
knowledgeable about the data; and, (3) verified the completeness of the population by comparing
withholdings to the applicable court case files. Based on this assessment, we determined that the
data was sufficiently reliable for purposes of the report.

The FPPS population from the period of October 1, 2012 through December 31, 2013 included a
universe of 235 transactions for 16 CPSC employees totaling $72,447.96. The population
included garnishments based on court orders totaling $57,572.64, as well as those based on the
Treasury Offset Program totaling $14,875.32. For the court-ordered garnishments, we requested
the associated employees file, which included the garnishment notification letter, a payroll
deduction agreement (for voluntary deductions) and all modifications related to the garnishment.
Due to IRS privacy laws, we were unable to obtain the Treasury Offset Files to verify the
accuracy of the Treasury Offset Program garnishments.




                                               12
                 APPENDIX C: ACRONYMS & ABBREVIATIONS



CFR     Code of Federal Regulations

CIGIE   Council of Inspectors General on Integrity and Efficiency

CPSC    Consumer Product Safety Commission

DCIA    Debt Collection Improvement Act

DOI     Departement of Interior.

EXRM    Office of Human Resources Management

FPPS    Federal Personnel Payroll System

IBC     Interior Business Center

IRS     Internal Revenue Service

OIG     Office of Inspector General




                                           13
APPENDIX D: MANAGEMENT RESPONSE




              14
